No. 20-6021

IN THE
SUPREME COURT OF THE UNITED STATES

WILLIAM G. ALLEN,
Petitioner,
vs.
CANDICE BATTS and TONY PARKER,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

PROOF OF SERVICE OF RESPONDENTS’ BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI

HERBERT H. SLATERY II
Attorney General and Reporter
State of Tennessee

ANDREE SOPHIA BLUMSTEIN
Solicitor General

JOHN H. BLEDSOE

Deputy Attorney General
Federal Habeas Corpus Division
Counsel of Record

500 Dr. Martin L. King Jr. Blvd.
P.O. Box 20207

Nashville, Tennessee 37202-0207
John.Bledsoe@ag.tn.gov
(615)741-4351

Counsel for Respondent
Pursuant to Supreme Court Rules 15.3, 29, and 33.2, and as a member of the Bar of this
Court and as counsel of record for the respondent, I certify that a true and exact copy of the brief
in opposition to the petition for a writ of certiorari has been furnished to all parties required to be
served in this cause, by email and by placing a copy in first-class U.S. Mail, postage paid, on the
9% day of December, 2020 to:

Sumter L. Camp

Assistant Federal Public Defender

810 Broadway, Suite 200

Nashville, TN 37203
Sumter_Camp@fd.org

 

Ve

JOHN H. BLEDSOE
Deputy Attorney General
